                     Consistent and Effective Manager
                 Involvement Is Needed in Examinations of
                            Large Businesses

                                  February 2004

                       Reference Number: 2004-30-054




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    February 27, 2004


       MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                      DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Consistent and Effective Manager
                                     Involvement Is Needed in Examinations of Large Businesses
                                     (Audit # 200230045)


       This report presents the results of our review to determine whether team manager
       workload reviews1 are an effective tool in managing the outcomes of examinations in the
       Large and Mid-Size Business (LMSB) Division Industry Case (IC) Program.2
       In summary, compared to 1996, team managers have fewer open examinations to
       manage and are no longer responsible for managing all types of examinations, just
       those associated with the nation’s largest taxpayers. However, our analysis of IC
       examinations, managerial practices, and the LMSB Division’s Quality Management
       System (LQMS) indicates team managers may be missing opportunities to more
       effectively control the timeliness and quality of IC examinations. In Fiscal
       Year (FY) 2002, the LMSB Division closed examinations on 8,636 IC returns, 3,810 of
       which had been in status 12 (examination started) for more than a year. This
       represents a 44 percent over-age inventory. Despite the over-age inventory, we did not
       consistently find documentation of team manager involvement in the over-age IC
       examinations we reviewed. When team managers were involved, we found very few


       1
         As discussed in this report, workload reviews encompass a variety of managerial practices used to provide
       oversight and involvement in examinations. These managerial practices include ongoing observations and
       discussions with examiners, reviews of work during examinations and after they are closed, and reviews of
       examiners’ monthly time reports.
       2
         The LMSB Division serves corporations, subchapter S corporations, and partnerships with assets greater than
       $10 million and divides these taxpayers into two categories, Coordinated Industry Cases (CIC) and ICs. CICs
       generally involve the nation’s largest taxpayers and are usually examined by teams of examiners. ICs are generally
       assigned to one examiner.
                                           2

instances in which they had documented action plans or target dates for closing the
examinations even though there were numerous periods of unexplained inactivity
exceeding 45 days. Finally, the LQMS has reported quality concerns with the IC
examinations closed in FY 2003. In the cases reviewed by the LQMS staff, only
54 percent adequately documented examiner audit trails, techniques, and conclusions
in the examination working papers and only 38 percent identified material tax issues
during examination planning.
To better ensure team managers are controlling the timeliness and quality of
examinations, we recommended the Commissioner, LMSB Division, require team
managers to more consistently document their reviews in the working papers. Although
the LMSB Division requires managerial reviews of examination work, it gives managers
discretion on the nature and frequency of their reviews. Moreover, it does not
specifically require documentation of all reviews in the working papers even though
generally accepted governmental auditing standards require such documentation.
We also made two recommendations to the Commissioner, LMSB Division, that will
strengthen management controls to ensure more consistent and effective managerial
involvement in IC examinations. First, LQMS procedures should be modified to include
determining whether team managers are consistently and effectively involved in all IC
examinations selected for LQMS review. At present, the LQMS staff determines the
sufficiency of managerial involvement in only those examinations that have disputed tax
issues. This resulted in determining the effectiveness of managerial involvement in just
71 (17 percent) of the 425 IC examinations reviewed in FY 2003. Second, updated
guidelines need to be developed and provided to team managers that standardize and
describe in detail the review processes managers should use and follow in evaluating
examination work. For years, the Internal Revenue Manual (IRM) contained an
Examination Group Manager’s Handbook that served this purpose. However, it was
eliminated when the IRM was revised to reflect changes associated with the Internal
Revenue Service’s (IRS) modernization effort.
Management’s Response: The Commissioner, LMSB Division, agreed with our
assessment that managers need to consistently and effectively perform and document
examination reviews. To ensure this, the Commissioner, LMSB Division, is choosing to
rely on a new risk analysis process that is scheduled for implementation in
September 2004.
The Commissioner did not agree to modify the LQMS auditing standards, choosing
instead to rely upon the new risk analysis process. However, as part of the new risk
analysis process, the LQMS Reviewers’ Guide is being revised to reflect the additional
manager responsibilities for evaluation under existing LQMS auditing standards.
Further, the Commissioner stated a Risk Analysis Design Team is developing a new
IRM section that will contain specific and standard guidelines for oversight and guidance
for all LMSB Division examinations, including guidelines related to the new risk analysis
process. We believe if management follows through with implementing the new risk
analysis process as described in the response, they should be able to determine
whether team managers are consistently and effectively involved in IC examinations.
                                         3

In the LMSB Division response, the Commissioner also provided technical comments to
clarify a specific section of the draft report that described the number of cases
managers were responsible for controlling. We incorporated these comments into the
report where appropriate. Management’s complete response to the draft report is
included as Appendix VI.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
                      Consistent and Effective Manager Involvement Is Needed
                               in Examinations of Large Businesses




                                                 Table of Contents


Background ............................................................................................... Page 1
Team Managers Are Better Positioned to Improve
the Timeliness and Quality of Examinations.............................................. Page 2
Team Managers Need to Document Their Involvement
in Examinations More Consistently............................................................ Page 5
         Recommendation 1: ...................................................................... Page 8

Management Controls Need Strengthening to Ensure
Consistent and Effective Managerial Involvement
in Examinations ......................................................................................... Page 8
         Recommendations 2 and 3: .......................................................... Page 10

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Survey of Industry Case Examination Team Managers ..... Page 15
Appendix V – The Large and Mid-Size Business Division’s
            Quality Measurement System ............................................. Page 22
Appendix VI – Management’s Response to the Draft Report ................... Page 24
             Consistent and Effective Manager Involvement Is Needed
                      in Examinations of Large Businesses

                              To measure the timeliness of examinations, the Large and
Background
                              Mid-Size Business (LMSB) Division1 uses cycle time,
                              which is defined as the average number of months from
                              when a return is filed until the examination process is
                              completed. In Fiscal Years (FY) 2002 and 2003,
                              examinations in the LMSB Division Industry Case (IC)
                              Program2 were considered timely if, on average, they were
                              completed within 31 and 35 months, respectively.
                              To define examination quality, the Division uses
                              four quality standards: (1) Planning the Examination;
                              (2) Inspection/Fact Finding; (3) Development, Proposal, and
                              Resolution of Issues; and (4) Workpapers and Reports.
                              Each standard also has several key elements that elaborate
                              on the overall standard. (See Appendix V for more details
                              on the standards and their associated elements).
                              The primary tool used by the LMSB Division to control the
                              timeliness and quality of examinations is the review of
                              ongoing examination work. This review is the
                              responsibility of the LMSB Division’s team managers, who
                              are responsible for ensuring the timeliness and quality of
                              examinations done by the examiners on their team. To meet
                              this responsibility, team managers can use a variety of
                              processes, such as ongoing observations and discussions
                              with examiners, reviews of work during examinations and
                              after they are closed, and monthly reviews of examiners’
                              time reports. Through these reviews, team managers
                              attempt to identify problems with the timeliness and quality
                              of examinations so examiners can take prompt corrective
                              actions.
                              After an IC examination is closed, the staff of the LMSB
                              Division’s Quality Management System (LQMS) may
                              review the case file to assess the degree to which the
                              examiner complied with the quality standards. The purpose
                              of these reviews is to collect information about the

                              1
                                The LMSB Division serves corporations, subchapter S corporations,
                              and partnerships with assets greater than $10 million.
                              2
                                The LMSB Division divides taxpayers into two categories,
                              Coordinated Industry Cases (CIC) and ICs. CICs generally involve the
                              nation’s largest taxpayers and are usually examined by teams of
                              examiners. ICs are generally assigned to one examiner.
                                                                                            Page 1
                Consistent and Effective Manager Involvement Is Needed
                         in Examinations of Large Businesses

                                 examination process, communicate areas of concern to top
                                 management, identify potential training needs, and improve
                                 work processes.
                                 We performed our audit in accordance with Government
                                 Auditing Standards at the LMSB Division field offices in
                                 the Los Angeles, California; Dallas, Texas; and
                                 New York, New York, metropolitan areas between
                                 August 2002 and February 2003. Detailed information on
                                 our audit objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 In the past, administrative demands on managers’ time,
Team Managers Are Better         combined with broad spans of control, hampered their
Positioned to Improve the        ability to take a greater role in the examination process. As
Timeliness and Quality of        reported by the General Accounting Office (GAO) in 1997,
Examinations                     the lack of managerial involvement in IC examinations was
                                 a contributing factor to a trend showing examinations were
                                 taking longer to complete and generating less additional
                                 recommended taxes.3 The GAO found:
                                         …managers were responsible for many revenue
                                         agents and other auditors who audit a range of tax
                                         entities, from individual returns through complex
                                         corporate returns that involve different tax rules and
                                         issues. [M]anagers tended to focus attention on
                                         newer staff and administrative duties.
                                 Since 1997, the Internal Revenue Service (IRS) has made
                                 significant progress in positioning team managers to take a
                                 greater role in the examination process. The most
                                 significant step was establishing the LMSB Division to
                                 serve and ensure the compliance of the nation’s largest
                                 taxpayers. With the grouping together of large taxpayers,
                                 there has been a noticeable impact on the number and types
                                 of examinations that must be managed by LMSB Division
                                 team managers.



                                 3
                                   Factors Affecting Results from Audits of Large Corporations
                                 (GAO/GGD 97-62, dated April 1997). The large corporations addressed
                                 in the GAO report comprise most of the large businesses the Internal
                                 Revenue Service refers to now as ICs.
                                                                                             Page 2
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                 Compared to 1996, for example, LMSB Division team
                 managers have fewer open examinations to manage at any
                 specific time and are no longer responsible for managing all
                 types of examinations, just those associated with the
                 nation’s largest taxpayers. Also, their teams are comprised
                 of only the most experienced examiners. Table 1 shows
                 that, on average, in 2003 these team managers had
                 257 fewer examinations under their control than in 1996.

                  Table 1: Average Inventory of Open Examinations Under Team
                  Managers in 1996 and 2003
                  Type of             Average           Average           Differences
                  Return Under       Number of        Number of IC       Between 1996
                  Examination       Returns per        Returns per         and 2003
                                    Examination       LMSB Team
                                   Manager in 1996   Manager in 2003
                  Individual            197                 9                 188

                  Corporate              43                 12                31

                  Partnership             4                  4                 0

                  Others                 45                  7                38

                  Overall Avg.           289                 32               257
                                                            ( )

                 ( ) The Commissioner, LMSB Division, indicated in the response to the
                 draft report that the overall average number of returns per team
                 manager in 2003 was 52 if CIC returns were included in the analysis.
                 Source: Treasury Inspector General for Tax Administration’s analysis
                 of the IRS Audit Information Management System (a computer system
                 used to control returns, input assessments and adjustments to the Master
                 File, and provide management reports). The Master File is the IRS
                 database that stores various types of taxpayer account information.

                 A number of other actions associated with the
                 modernization effort that are perhaps less apparent but
                 should encourage greater management involvement in
                 casework include:
                     •     Creating a Managers’ Advisory Group to serve as an
                           informal forum for managers to discuss issues of
                           interest and elevate areas of concern to senior level
                           management.
                     •     Implementing a new employee evaluation system
                           designed to align performance expectations with the

                                                                                   Page 3
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                        IRS’ three balanced measures of performance
                        (customer satisfaction, employee satisfaction, and
                        business results).
                    •   Establishing an online human resources system to
                        allow users to initiate paperless personnel
                        transactions, which can be approved by managers
                        electronically. This will reduce the administrative
                        burden on managers because required information is
                        entered into the system only once.
                    •   Developing computer-based training packages to
                        deliver briefings to Revenue Agents on mandatory
                        topics that were previously the team manager’s
                        responsibility.
                    •   Realigning the LMSB Division’s Territory and team
                        structure to reduce the number of industry groups
                        represented at each post of duty, thus reducing the
                        dispersion of some teams over wide geographic
                        areas. One of the stated purposes of this action was
                        to “ease burden on managers by facilitating decision
                        making and accountability.”
                    •   Introducing publications intended to standardize the
                        timeliness and content of communications within the
                        LMSB Division, as well as control the volume of
                        communications by highlighting essential
                        information. These publications include Red Book
                        communications, which provide information on the
                        LMSB Division-wide executive-level decisions, new
                        initiatives, and other matters expected to directly
                        affect frontline managers and their teams; and
                        Managers’ News Briefs, which are short, concise,
                        easy-to-read informational messages for managers
                        consolidated into a single document.
                 As envisioned in the IRS’ 2000 Organization Blueprint, the
                 modernization effort at the agency has better positioned
                 team managers to increase their involvement in IC
                 examinations. However, our analysis indicates additional
                 steps could be taken to reinforce the emphasis on increasing
                 manager involvement in examinations. Team manager
                 involvement in the examination process needs to be

                                                                       Page 4
                  Consistent and Effective Manager Involvement Is Needed
                           in Examinations of Large Businesses

                                   documented more consistently and management controls
                                   could be strengthened.
                                   Both within and outside the Federal Government, the
Team Managers Need to
                                   primary control process that ensures quality audits are
Document Their Involvement in
                                   completed timely is the supervisory review of audit work
Examinations More Consistently
                                   conducted by auditors. As an example of a best practice,
                                   generally accepted governmental auditing standards require
                                   that supervisors review all auditor working papers and that
                                   evidence of these reviews be maintained in the working
                                   papers. The American Institute of Certified Public
                                   Accountants has similar requirements for audits conducted
                                   in the public sector.
                                   The LMSB Division requires managers to review
                                   examination work but gives them discretion on the
                                   frequency and nature of their reviews. For example, our
                                   survey of all team managers conducting IC examinations
                                   found managers use a variety of managerial practices to
                                   provide oversight and involvement in IC examinations.4
                                   These practices include ongoing observations and
                                   discussions with examiners, reviews of work during
                                   examinations and after they are closed, and reviews of
                                   examiners’ monthly time reports. However, the LMSB
                                   Division does not specifically require that all of these
                                   reviews be documented in the working papers, despite
                                   generally accepted governmental auditing standards
                                   requiring such documentation. As a result, opportunities to
                                   better control the timeliness and quality of examinations
                                   may be missed.
                                   In FY 2002, the LMSB Division closed examinations on
                                   8,636 IC returns, 3,810 of which had been in status 12
                                   (examination started) for more than a year. This represents
                                   a 44 percent over-age inventory. We reviewed 47 over-age
                                   cases (75 returns) that, on average, exceeded the LMSB
                                   Division’s cycle goal by 3 months and found no
                                   documentation of team manager involvement in
                                   21 (45 percent) of the 47 cases. In reviewing the
                                   examinations, we considered evidence of managerial



                                   4
                                       See Appendix IV for more details on our survey of team managers.
                                                                                                   Page 5
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                 involvement to include any indication of team manager
                 directions, comments, initials, or notations in the case files.
                 Because reviews may have been conducted but not
                 documented in the case files, we also visited 3 large
                 metropolitan areas and reviewed another 21 cases
                 (67 returns) from 9 groups that had still been open in
                 FY 2003 for more than a year. Although our review of the
                 21 open cases found the percentage of cases without any
                 managerial involvement decreased from 45 percent to
                 19 percent, there were 45 periods of unexplained inactivity
                 ranging from 49 to 639 days. Except for one team, we
                 found very few instances in which managers developed
                 action plans or target dates for closing the cases. The IRS
                 has traditionally considered action plans and target dates for
                 completing specific actions effective techniques for
                 managing and controlling examinations.
                 Although we did not review case files to evaluate the quality
                 of examinations, the LQMS is finding concerns in areas of
                 the four standards the LMSB Division uses to define
                 examination quality. As shown in Table 2, the LQMS
                 reported examiner audit trails, techniques, and conclusions
                 were adequately documented in only 54 percent of the
                 examination working papers reviewed in FY 2003. In
                 addition, material tax issues were identified during the
                 planning phase of only 38 percent of the examinations.




                                                                          Page 6
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                  Table 2: Fiscal Year 2003 Pass Rates for Selected Key Quality
                  Elements in the LMSB Division’s Examination Standards
                     Audit Standard              Key Quality Element             FY 2003
                                                                                Pass Rates

                  Planning the               Identifying material tax                38%
                  Examination                issues.
                  Inspection/Fact            Using appropriate                       63%
                  Finding                    examination procedures and
                                             techniques.
                  Development,               Considering and applying                49%
                  Proposal, and              penalties.
                  Resolution of Issues
                  Workpapers and             Adequately documenting the              54%
                  Reports                    audit trail, techniques, and
                                             conclusions in working
                                             papers.
                   - The pass rate measurement computes the percentage of examinations that
                 showed the characteristics of the key element.
                 Source: LMSB Division data.

                 We believe the quality of the working papers is a particular
                 source of concern because it raises questions about whether
                 managers are controlling the timeliness and quality of
                 examinations as intended. Like others in the auditing
                 community, the LMSB Division considers working papers
                 an important aspect of the overall quality of an examination.
                 Working papers provide the principal support for the scope
                 of the examination, procedures used, evidence examined,
                 and conclusions reached. They are especially important
                 when a taxpayer does not agree with an examiner’s
                 conclusion that additional taxes are owed. In these
                 instances, the working papers are used to resolve differences
                 over how much, if any, additional tax is owed.




                                                                                      Page 7
                Consistent and Effective Manager Involvement Is Needed
                         in Examinations of Large Businesses

                                 Recommendation

                                    1. To better ensure team managers are controlling the
                                       timeliness and quality of examinations as intended,
                                       the Commissioner, LMSB Division, should require
                                       team managers to document their reviews in working
                                       papers more consistently. The documentation
                                       should include brief summaries of discussions held
                                       and action plans developed.
                                    Management’s Response: The Commissioner, LMSB
                                    Division, agreed with our assessment that managers
                                    need to consistently and effectively perform and
                                    document examination reviews. To ensure this, the
                                    Commissioner, LMSB Division, is choosing to rely
                                    upon a new risk analysis process that is scheduled for
                                    implementation in September 2004.
                                 According to the GAO Standards for Internal Control in the
Management Controls Need         Federal Government, control activities are the policies,
Strengthening to Ensure          procedures, techniques, and mechanisms established to
Consistent and Effective         assist agencies in achieving their objectives. To meet its
Managerial Involvement in        objective of ensuring team manager involvement in
Examinations                     examinations, the LMSB Division has several control
                                 components.
                                 At the top of the organization, there is a broad policy to
                                 resolve tax issues at the lowest level. In practice, this
                                 requires team managers to contact taxpayers when
                                 disagreements surface in examinations. The purpose of the
                                 contact is to resolve disputes or document the reasons for
                                 the disagreement in the working papers. In addition, the
                                 LMSB Division uses the LQMS as a mechanism for
                                 measuring the sufficiency of managerial involvement in
                                 examinations and provides managers with ready access to
                                 official procedures governing the examination process.
                                 However, as the LMSB Division moves forward there are
                                 steps that could be taken to strengthen the LQMS and the
                                 official procedures governing examinations.
                                 The LQMS staff reviews a sufficient sample of closed IC
                                 examinations to ensure team managers are resolving issues
                                 during examinations. Among other things, a result from

                                                                                      Page 8
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                 these reviews is to communicate areas of concern, such as
                 inadequate team manager involvement in examinations, to
                 top management so corrective actions can be taken if
                 needed. However, the LQMS staff determines the
                 sufficiency of managerial involvement in only those
                 examinations that have disputed tax issues. Consequently,
                 top management may not be getting a complete picture of
                 team manager involvement in examinations from the
                 LQMS. In FY 2003, the sufficiency of team manager
                 involvement was determined in just 71 (17 percent) of the
                 425 IC examinations reviewed.
                 The Internal Revenue Manual (IRM) serves as the official
                 compilation of procedures, instructions, and guidelines that
                 govern the examination process in the IRS. For years, the
                 IRM contained an Examination Group Manager’s
                 Handbook5 that was designed to assist frontline managers in
                 meeting their responsibility to ensure quality examinations
                 are completed timely. Among other things, the Handbook
                 standardized and described in detail the review processes,
                 such as workload reviews and on-the-job visits, that
                 managers should use in evaluating examination work.
                 However, recent changes to the IRM associated with the
                 IRS’ modernization effort replaced the Examination Group
                 Manager’s Handbook with a new Small Business/
                 Self-Employed (SB/SE) Compliance Field Examination
                 Group Manager Guide.6 Unlike the old Handbook that was
                 designed for use agency-wide, the new Guide is uniquely
                 focused on the frontline managers in the IRS SB/SE
                 Division. Consequently, at present, there are no specific
                 and standard guidelines for team managers to use in
                 reviewing examinations in the LMSB Division.




                 5
                     IRM 114.1, Chapter 3 (superseded).
                 6
                     IRM 1.4.40, August 2003.
                                                                       Page 9
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                 Recommendations

                 To strengthen management controls, the Commissioner,
                 LMSB Division, should coordinate with the Director,
                 Quality Assurance and Performance Management, in:
                    2. Modifying the LQMS procedures to include
                       determining whether team managers are consistently
                       and effectively involved in all IC examinations.
                    Management’s Response: The Commissioner, LMSB
                    Division, did not agree to modify the LQMS auditing
                    standards, choosing instead to rely upon a new risk
                    analysis process that is being implemented. As part of
                    the new risk analysis process, the LQMS Reviewers’
                    Guide is being revised to reflect the additional manager
                    responsibilities for evaluation under existing LQMS
                    auditing standards.
                    Office of Audit Comment: We believe if management
                    follows through with implementing the new risk
                    analysis process as described in the response, they
                    should be able to determine whether team managers are
                    consistently and effectively involved in IC
                    examinations.
                    3. Providing team managers with specific and standard
                       guidelines to use in providing oversight and
                       guidance to examinations.
                 Management’s Response: The Commissioner, LMSB
                 Division, stated that a Risk Analysis Design Team is
                 developing a new IRM section that will contain specific and
                 standard guidelines for oversight and guidance for all
                 LMSB Division examinations, including guidelines related
                 to the new risk analysis process.




                                                                     Page 10
                     Consistent and Effective Manager Involvement Is Needed
                              in Examinations of Large Businesses

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

Our objective was to determine whether team manager workload reviews are an effective tool in
managing the outcomes of Industry Case (IC) examinations1 within the Large and Mid-Size
Business (LMSB) Division. To meet our objective, we relied upon the Internal Revenue
Service’s (IRS) internal management reports and databases. We did not establish the reliability
of these data because extensive data validation tests were outside the scope of this audit and
would have required a significant amount of time. Our tests included:
     I. Reviewing the IRS’ policies and procedures to determine the level of involvement
        expected of team managers in controlling IC examinations.
    II. Reviewing prior General Accounting Office (GAO) and Treasury Inspector General for
        Tax Administration reports to identify past concerns, if any, with IC examinations and
        the corrective actions taken in response to any concerns reported.
    III. Analyzing a judgmental sample of approximately 50 out of 1,735 corporate IC
         examinations that were closed in Fiscal Year (FY) 2002 and 21 out of the 6,541 corporate
         IC examinations that were open as of October 2002, to assess the sufficiency of
         managerial involvement in the examinations. Judgmental sampling was used to minimize
         time and travel costs.
    IV. Evaluating the status and impact of initiatives to reduce the administrative burden on
        frontline managers including recommendations made by the Taxpayer Treatment and
        Service Improvement Executive Steering Committee, Professional Managers
        Association, and LMSB Division Managers’ Advisory Group.
    V. Analyzing FYs 1995 though 2003 data from the Audit Information Management System
       (AIMS)2 to identify trends in IC examinations, including the number of returns examined,
       examination cycle time, and the average inventories of open examinations under team
       managers.




1
  The LMSB Division serves corporations, subchapter S corporations, and partnerships with assets greater than
$10 million and divides these taxpayers into two categories, Coordinated Industry Cases (CIC) and ICs. CICs
generally involve the nation’s largest taxpayers and are usually examined by teams of examiners. ICs are generally
assigned to one examiner.
2
  The AIMS is a computer system used to control returns, input assessments and adjustments to the Master File, and
provide management reports. The Master File is the IRS database that stores various types of taxpayer account
information.
                                                                                                          Page 11
                 Consistent and Effective Manager Involvement Is Needed
                          in Examinations of Large Businesses

 VI. Using the GAO Standards for Internal Control in the Federal Government to assess the
     adequacy of controls established to ensure team managers are involved in the
     examinations.
VII. Evaluating the LMSB Division’s Quality Management System to determine if managerial
     involvement was assessed during reviews and, if so, whether it had been identified as a
     problem.
VIII. Surveying all LMSB Division team managers conducting IC examinations to determine
      how they got involved in examinations and if there were potential barriers that hampered
      their ability to become more involved in the examinations they control.




                                                                                       Page 12
                 Consistent and Effective Manager Involvement Is Needed
                          in Examinations of Large Businesses

                                                                                 Appendix II


                           Major Contributors to This Report

Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Frank Dunleavy, Audit Manager
Earl Charles Burney, Senior Auditor
Robert Jenness, Senior Auditor
Lawrence Smith, Senior Auditor




                                                                                       Page 13
                Consistent and Effective Manager Involvement Is Needed
                         in Examinations of Large Businesses

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Quality Assurance and Performance Management, Large and Mid-Size Business
Division SE:LM:Q
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                                  Page 14
                       Consistent and Effective Manager Involvement Is Needed
                                in Examinations of Large Businesses

                                                                                                Appendix IV


                     Survey of Industry Case Examination Team Managers

The following survey questions were contained in an online survey hosted on the Internal
Revenue Service (IRS) Intranet at http://survey.web.irs.gov/ICmanager/default.asp. Notification
about the survey was e-mailed to all frontline managers conducting Industry Case examinations
by the Large and Mid-Size Business Division Office of Communications and Liaison on
February 6, 2003, asking for completion by February 14, 2003.
Welcome

Welcome to the IC Team Manager Survey. Since this is a step-by-step form, returning to incorrect
answers may be troublesome, so please answer each of the following questions as thoroughly as
possible and verify your answers before continuing. Click the "Next" button after answering each
question.

This is an anonymous survey. However, at the end of the survey, you will be asked to enter your name
into a form field. Please provide this information. It will not be linked with the answers you provided. It is
only used to verify how many individuals completed the survey.

Contact Robert Jenness, TIGTA Senior Auditor, if you have any problems completing this survey or other
questions regarding the review. He may be reached at (213) 894-4470, x119 or by E-mail at
Robert.Jenness@tigta.treas.gov.


Part A: General Questions
                 QUESTIONS                                             ANSWERS              Number     Applic. %
1. Were you assigned as a manager of an examination team            Yes (Go to next            190        74%
   that performed at least “some” Industry Case (IC)                    question.)
   examinations in FY 2002? (i.e., not primarily a                  No (Go to Question           67       26%
   Coordinated Industry Case team).                                     18.)
2. If you managed an examination team that performed at             Yes (Go to next            146        77%
   least some IC work in FY 2002, did you conduct any                   question.)
   formal documented workload reviews (see IRM1
   114.1.3.8.6) for the Revenue Agents (RAs) assigned to
   your team during FY 2002?                                        No (Go to Question           44       23%
                                                                        7.)
3. If you performed documented workload reviews in FY               Yes (Go to next            113        77%
   2002 for the RAs performing IC work assigned to your                 question.)
   team, did you perform at least one for each RA?                      No (Go to                33       23%
                                                                        Question 9.)


1
    IRM refers to the Internal Revenue Manual.
                                                                                                        Page 15
                       Consistent and Effective Manager Involvement Is Needed
                                in Examinations of Large Businesses



                          QUESTIONS                                      ANSWERS             Number Applic. %2
4.      If you performed at least one documented workload            Approx. 1 per RA             64        57%
        review for each RA performing IC work assigned to               assigned
        your team, approximately how many workload reviews
        did you conduct in FY 2002?                                  Approx. 2 per RA             35        31%
                                                                        assigned

                           (When complete, go to next question.) Approx. 3 or more                14        12%
                                                                         per RA
5. Were you able to conduct all the documented workload              Yes (Go to Question        104         92%
   reviews you deemed necessary for your team in                         12.)
    FY 2002?
                                                                     No (Go to next                   9      8%
                                                                         question.)
6.      What was the reason, or reasons, you were not able to        (multiple answers
        conduct all the documented workload reviews you                  allowed)
        deemed necessary for your team in FY 2002?

       ___ Administrative burdens (personnel issues, mandatory                                        8     89%
             briefings/training, etc.)
       ___ Span of control (too many RAs and/or dispersed over                                        3     33%
             large area)
       ___ Lack of clerical support (managers performing clerical                                     2     22%
             tasks due to lack of clerical support)
       ___ Communication problems (volume of e-mail, technical                                        3     33%
             problems with computers and/or telecommunications,
             etc.)
       ___ Other reason (describe in textbox)                                                         3     33%
                             (When complete, go to Question 12.)




2
    Percentages for Question 6 were computed based upon 9 persons responding, some with multiple answers.
                                                                                                          Page 16
                       Consistent and Effective Manager Involvement Is Needed
                                in Examinations of Large Businesses




Part B: Managers Not Conducting Any Workload Reviews for RAs in FY 2002
                          QUESTIONS                                      ANSWERS              Number Applic. %3
7.      What was the reason, or reasons, that you did not            (multiple answers
        conduct any documented workload reviews for the RAs              allowed)
        performing IC work assigned to your team in FY 2002?

       ___ Administrative burdens (personnel issues, mandatory
             briefings/training, etc.)                                                            14       32%
       ___ Span of control (too many RAs and/or dispersed over
             large area)                                                                            5      11%
       ___ Lack of clerical support (managers performing clerical
             tasks due to lack of clerical support)                                                 5      11%
       ___ Communication problems (volume of e-mail, technical
             problems with computers and/or telecommunications,                                     5      11%
             etc.)
       ___ Other reason (describe in textbox)
                           (When complete, go to next question.)                                  36       82%

8.      Did you use another documented method, other than             (multiple answers
        workload reviews, to manage your examiners’ IC                    allowed)
        inventories, such as those listed in IRM 114.1.3.8?
       ___ In-process case review
       ___ On-the-job visits                                                                      20       45%
       ___ Other method (describe in textbox)                                                     31       70%
                                                                                                  16       36%
                             (When complete, go to Question 16.)




3
    Percentages for Questions 7 and 8 were computed based upon 44 persons responding, some with multiple answers.
                                                                                                         Page 17
                     Consistent and Effective Manager Involvement Is Needed
                              in Examinations of Large Businesses




Part C: Managers Not Conducting Workload Reviews for All RAs in FY 2002
                                                                                                                  4
                        QUESTIONS                                       ANSWERS              Number Applic. %
9.    If you did not perform at least one documented                 Approx. less than              7      21%
      workload review for each RA performing IC work                    25%
      assigned to your team in FY 2002, approximately what
                                                                     Approx. 25% to               10       30%
      percentage of your RAs received documented workload               50%
      reviews in FY 2002?
                                                                     Approx. 51% to               14       42%
                         (When complete, go to next question.)          75%

                                                                     Approx. more than              2        6%
                                                                        75%
10. What was the reason, or reasons, that you did not                (multiple answers
    conduct documented workload reviews for all RAs                      allowed)
    performing IC work assigned to your team in FY 2002?

     ___ Administrative burdens (personnel issues, mandatory
           briefings/training, etc.)                                                              11       33%
     ___ Span of control (too many RAs and/or dispersed over
           large area)                                                                              5      15%
     ___ Lack of clerical support (managers performing clerical
           tasks due to lack of clerical support)                                                   3        9%
     ___ Communication problems (volume of e-mail, technical
           problems with computers and/or telecommunications,                                       2        6%
           etc.)
     ___ Other reason (describe in textbox)
                         (When complete, go to next question.)                                    25       76%

11. Did you use another documented method, other than                (multiple answers
    workload reviews, to manage your examiners’ IC                       allowed)
    inventories, such as those listed in IRM 114.1.3.8?
     ___ In-process case review
                                                                                                  21       64%
     ___ On-the-job visits
                                                                                                  28       85%
     ___ Other method (describe in textbox)
                         (When complete, go to next question.)                                      7      21%




4
 Percentages for Question 9 do not total 100 percent due to rounding. Percentages for Questions 10 and 11 were
computed based upon 33 persons responding, some with multiple answers.
                                                                                                        Page 18
                       Consistent and Effective Manager Involvement Is Needed
                                in Examinations of Large Businesses




Part D: Managers Conducting at Least Some Workload Reviews in FY 2002
                                                                                                                    5
                          QUESTIONS                                     ANSWERS              Number Applic. %
12. For the documented workload reviews conducted in        Less than 4 hours                    49        34%
    FY 2002, approximately how many hours were required
    for the average workload review?                        Approx. 4 to 8 hours                 70        48%
                      (When complete, go to next question.)
                                                                     More than 8 hours           27        18%
13. For the workload reviews you conducted in FY 2002,               (multiple answers
    did you observe any of the following areas of concern in             allowed)
    any examination (see IRM 114.1.3.6(7))?

       ___ Adequacy of inventory
                                                                                                 75        51%
       ___ Work problems and delays

       ___ Awareness to fraud indicators                                                        105        72%

       ___ Compatibility of work with grade                                                      14        10%

       ___ Need for special advice and assistance                                                18        12%

       ___ Awareness of computer assisted audit program and                                      82        56%
            utilization of computer audit specialist
                                                                                                 40        27%
       ___ Consider retention requirements

       ___ Application of statistical sampling techniques
                                                                                                      8        5%
       ___ Use of computer report writing programs
                                                                                                 15        10%
       ___ Awareness of the MSSP and ISP
                                                                                                 36        25%
       ___ AIMS/ERCS controls
                                                                                                 34        23%
       ___ Other concern (describe in textbox)
    (If any concerns, go to next question; if no areas of concern,                               47        32%
                                               go to Question 16.)
                                                                                                 23        16%




5
    Percentages for Question 13 were computed based upon 146 persons responding, some with multiple answers.
                                                                                                          Page 19
                    Consistent and Effective Manager Involvement Is Needed
                             in Examinations of Large Businesses


                                                                                                                 6
                        QUESTIONS                                     ANSWERS              Number Applic. %
14. For the areas of concern noted in the question above,          Yes, all problems          60       44%
    were you able to resolve the problem based on your                 (Go to next
    workload review and subsequent follow-up?                          question.)

                                                                   Yes, some problems         61       45%
                                                                       (Go to next
                                                                       question.)

                                                                   No (Go to Question         14       10%
                                                                       16.)
15. If you resolved any of the areas of concern listed in          (multiple answers
    Question 13, indicate if you used any of the methods               allowed)
    listed below (see IRM 114.1.3.6(11))

    ___ Suggest new approaches to your employee in                                            36       25%
          scheduling appointments
    ___ Point out valid objections by the taxpayer that the                                   37       25%
          employee has failed to consider
    ___ Urge employees to reach decisions when there is                                       84       58%
          enough information to do so
    ___ Increase/decrease in scope of examination                                             97       66%
    ___ Provide additional resources (staff hours, travel funds,                              44       30%
          etc.)
    ___ Other method (describe in textbox)                                                    16       11%
                         (When complete, go to next question.)


Part E: Conclusion
16. Are you aware of any IRS initiative(s) (planned or             ___ Yes (describe in       10            5%
    underway) to eliminate any of the barriers to conducting           textbox, then go
    documented workload reviews cited in your responses?               to next question)

                                                                   ___ No (Go to             148       78%
                                                                       Question 18.)

                                                                   ___ N/A—no barriers        32       17%
                                                                       cited (Go to
                                                                       Question 18.)




6
 Percentages for Question 14 were computed based upon 135 persons responding. Percentages for Question 15
were computed based upon 146 persons responding, some with multiple answers.
                                                                                                     Page 20
                   Consistent and Effective Manager Involvement Is Needed
                            in Examinations of Large Businesses



                       QUESTIONS                                       ANSWERS           Number   Applic. %
17. If you answered “yes” to the previous question, do you      ___ Yes (Go to next           3      30%
    believe that the IRS initiative(s) you described will           question.)
    eliminate the barriers to conducting documented
    workload reviews that you cited in your responses?          ___ No (describe in           7      70%
                                                                    textbox why
                                                                    initiative(s) will
                                                                    not be effective,
                                                                    then go to next
                                                                    question)
18. Do you have any suggestions to improve the workload         (describe in textbox)
    review process or reduce the administrative burden on
    first-line managers?

Part F: Review

Please review the following data before submitting. If a change is needed, you will need to use your
browser's "Back" button to return to the question of concern and continue the form from there. This is
because the survey is a step-by-step form.
Your name:


Submit

NOTE: Your name will not be linked with the answers you provided. This is only to confirm that you have
completed the survey.

Contact Robert Jenness, TIGTA Senior Auditor, if you have any problems completing this survey or other
questions regarding the review. He may be reached at (213) 894-4470, x119 or by E-mail at
Robert.Jenness@tigta.treas.gov.




                                                                                                  Page 21
                          Consistent and Effective Manager Involvement Is Needed
                                   in Examinations of Large Businesses

                                                                                                            Appendix V


        The Large and Mid-Size Business Division’s Quality Measurement System

The Office of Quality Assurance and Performance Management, within the Large and Mid-Size
Business (LMSB) Division, has responsibility for the LMSB Division’s Quality Measurement
System. The LMSB Division uses the System to, among other things, measure the quality of
Industry Case examinations against four standards: (1) Planning the Examination;
(2) Inspection/Fact Finding; (3) Development, Proposal, and Resolution of Issues; and
(4) Workpapers and Reports. Each standard also has several key elements that elaborate on the
overall standard. Table 1 summarizes the standards and associated key elements.

                     Table 1: Summary of the Large and Mid-Size Business Division’s Quality
                                 Measurement System (as of September 2003)
No.         Standard                                   Key Elements                                       Overview
    1      Planning the      • Was appropriate information     • Did the audit plan              The standard evaluates
           Examination         considered in the                 adequately set forth the        whether the audit plan
                               preplanning process?              scope and depth of the          identifies material issues;
                             • Were material items               examination?                    whether initial requests for
                               identified?                     • Did the audit plan include a    information are clear,
                             • Was an appropriate initial        realistic estimated             concise, and appropriate and
                               risk analysis performed?          completion date and realistic   address the potential issues
                             • Were timely referrals to          time frames for development     selected; and whether all
                               specialists and request for       of issues/areas?                necessary steps are taken to
                               support made?                   • Were audit procedures           set the groundwork for a
                             • Were all TEFRA1                   documented during the           complete examination.
                               procedures followed for           planning process?
                               Form 10652 and                  • Did the planning process
                               Form 1120-S3 returns?             have adequate taxpayer
                                                                 involvement?
    2     Inspection/Fact     • Were appropriate audit         • Was there communication         Appropriate audit procedures
              Finding           procedures and examination       with the taxpayer to reach an   and examination techniques,
                                techniques used?                 understanding of the facts      including interviews, written
                              • Were the Information             regarding material issues?      requests, inspection,
                                Document Requests clear        • Were mandatory                  observation, and other fact
                                and concise?                     Information Document            finding techniques, should be
                              • Were Computer Audit              Requests issued as              used to gather sufficient,
                                Specialist applications used     appropriate?                    competent information to
                                in obtaining necessary                                           determine the correct tax
                                information?                                                     liability.




1
  Tax Equity and Fiscal Responsibility Act of 1982, a common acronym used for a complex set of examination,
processing, and judicial procedures that affect the way the Internal Revenue Service works with partnerships and
limited liability companies that file as partnerships.
2
  U.S. Return of Partnership Income (Form 1065).
3
  U.S. Income Tax Return for an S Corporation (Form 1120-S).
                                                                                                                    Page 22
                        Consistent and Effective Manager Involvement Is Needed
                                 in Examinations of Large Businesses


 No.         Standard                              Key Elements                                         Overview
     3      Development,    • Were the issues                • Was an appropriate midcycle      Due professional care should
            Proposal, and     appropriately developed          risk analysis performed?         be exercised in the
            Resolution of     based upon the facts           • Were the Forms 57014 clear       application of the tax law.
               Issues         obtained?                        and concise?                     The taxpayer should be given
                            • Was the time commensurate      • Were proposed adjustments        an opportunity to participate
                              with the complexity of the       discussed with the taxpayer      in issue development.
                              issues?                          prior to issuance of
                            • Were appropriate advice and      Form 5701?                       The notice of proposed
                              assistance obtained from       • Did the team adequately          adjustments and attachments
                              resources outside the team?      consider responses to            should be stated in terms
                            • Was there timely and             Forms 5701 provided by the       understandable to the
                              effective communication          taxpayer?                        taxpayer, and it should clearly
                              among all team members?        • Were appropriate actions         state the issue, facts, law,
                            • Did the case file reflect a      taken to resolve issues at the   Federal Government’s
                              reasonable interpretation,       lowest level?                    position, taxpayer’s position,
                              application, and explanation   • Was there meaningful             and conclusions.
                              of the law based upon the        managerial involvement to
                              facts and circumstances of       resolve issues at the lowest
                              the examination?                 level?
                            • Were penalties considered
                              and applied as warranted?
     4     Workpapers and   • Were workpapers                • Were applicable report           Workpapers are the link
              Reports         legible/organized?               writing procedures               between the examination
                            • Were examination activities      followed?                        work and the report. They
                              properly documented by         • Did the team manager             should contain the evidence
                              using agent activity records     review the audit report prior    to support the facts and
                              or quarterly narratives?         to issuance?                     conclusion contained in the
                            • Did the workpapers             • Were factual and legal           report. Written reports
                              adequately document the          differences in the taxpayer’s    should communicate the
                              Audit Trail, Techniques, and     protest addressed?               findings and examination in a
                              Conclusions?                                                      professional manner.
Source: Internal Revenue Service Document 12076, “Focus on Quality Examinations.”




 4
     Notice of Proposed Adjustment (Form 5701).

                                                                                                                    Page 23
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses

                                                         Appendix VI


   Management’s Response to the Draft Report




                                                              Page 24
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses




                                                         Page 25
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses




                                                         Page 26
Consistent and Effective Manager Involvement Is Needed
         in Examinations of Large Businesses




                                                         Page 27
